                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     Recipient Subawards to
                     Fellows Did Not Comply With
                     Federal Requirements and
                     EPA’s Involvement in Fellow
                     Selection Process Creates the
                     Appearance EPA Could Be
                     Circumventing the Hiring Process

                     Report No. 14-P-0357              September 17, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 Jean Bloom
                                                     Safiya Chambers




Abbreviations

ASPH           Association of Schools of Public Health
CA             Cooperative Agreement
CFR            Code of Federal Regulations
EPA            U.S. Environmental Protection Agency
OIG            Office of Inspector General
ORD            Office of Research and Development


 Are you aware of fraud, waste or abuse in an            EPA Office of Inspector General
 EPA program?                                            1200 Pennsylvania Avenue, NW (2410T)
                                                         Washington, DC 20460
 EPA Inspector General Hotline                           (202) 566-2391
 1200 Pennsylvania Avenue, NW (2431T)                    www.epa.gov/oig
 Washington, DC 20460
 (888) 546-8740
 (202) 566-2599 (fax)
 OIG_Hotline@epa.gov                                     Subscribe to our Email Updates
                                                         Follow us on Twitter @EPAoig
 More information at www.epa.gov/oig/hotline.html.       Send us your Project Suggestions
                         U.S. Environmental Protection Agency                                               14-P-0357
                                                                                                    September 17, 2014
                         Office of Inspector General


                         At a Glance
Why We Did This Review              Recipient Subawards to Fellows Did Not Comply
                                    With Federal Requirements and EPA’s Involvement in
The U.S. Environmental
Protection Agency (EPA),            Fellow Selection Process Creates the Appearance
Office of Inspector General         EPA Could Be Circumventing the Hiring Process
(OIG), conducted an audit of
Cooperative Agreement (CA)
                                     What We Found
No. 83388101 awarded to the
Association of Schools of
                                    Our audit did not disclose anything that would      ASPH’s subawards to
Public Health (ASPH). The
                                    indicate that ASPH improperly used federal          fellows made under the CA
EPA’s Office of Research and
                                    funds or that the objectives of the CA were not     are contrary to federal
Development awarded the CA
                                    met. However, we did identify two areas under       requirements because
to ASPH on July 29, 2008.The                                                            individuals are ineligible as
                                    the CA that require improvement by the EPA.
purpose of the CA was to place                                                          subgrantees and agency
recent graduates into 1- or                                                             involvement in selection of
                                    ASPH’s subawards to fellows made under the
2-year fellowships at the EPA,                                                          fellows creates an
                                    CA are contrary to federal requirements. Per
during which the fellows would                                                          appearance that the EPA
                                    the agreement between ASPH and the fellows,         could be circumventing the
be mentored by EPA experts.
                                    ASPH considers the fellows as subgrantees,          hiring process.
                                    but individuals are ineligible as subgrantees
We sought to determine
                                    under the Code of Federal Regulations. As a result, a different award vehicle is
whether the federal funds were
                                    needed for the ASPH fellowship program.
used for their intended purpose
and in accordance with the CA
                                    Also, the EPA’s involvement in the selection process for fellowship candidates
terms and conditions and
                                    creates the appearance that the agency could be circumventing the hiring
applicable government
                                    process and recruiting fellows in place of permanent employees. EPA Order
regulations. In addition, we
                                    5700.1 states that substantial involvement is anticipated where a project is
sought to determine whether
                                    expected to entail agency involvement in the selection of key recipient personnel.
the CA’s objectives were met.

This report addresses the            Recommendations and Planned Corrective Actions
following EPA goal or
cross-agency strategy:              We recommend that the Director of the EPA Office of Grants and Debarment
                                    determine the proper vehicle to be used under the CA and take the necessary
                                    actions to ensure subawards comply with applicable federal regulations. We also
  Working toward a
                                    recommend that the Director obtain an Office of General Counsel opinion on how
   sustainable future.
                                    the EPA should be involved in the selection of fellows and, as needed, reduce
                                    the appearance that the fellowship program is circumventing the hiring and
                                    recruiting process.
Send all inquiries to our public
affairs office at (202) 566-2391    The agency agreed with our recommendations and provided corrective actions
or visit www.epa.gov/oig.           with estimated completion dates.

The full report is at:
www.epa.gov/oig/reports/2014/
20140917-14-P-0357.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL




                                          September 17, 2014

MEMORANDUM

SUBJECT:       Recipient Subawards to Fellows Did Not Comply With Federal Requirements
               and EPA’s Involvement in Fellow Selection Process Creates the Appearance
               EPA Could Be Circumventing the Hiring Process
               Report No. 14-P-0357

FROM:          Arthur A. Elkins Jr.

TO:            Howard F. Corcoran, Director
               Office of Grants and Debarment
               Office of Administration and Resources Management

This is our report on a cooperative agreement to the Association of Schools of Public Health conducted
by the Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA). This
report contains findings that describes the problems the OIG has identified and corrective actions the
OIG recommends. This report represents the opinion of the OIG and does not necessarily represent the
final EPA position. Final determinations on matters in this report will be made by EPA managers in
accordance with established audit resolution procedures.

The Office of Grants and Debarment, within the Office of Administration and Resources Management,
is responsible for grants management of cooperative agreements issued by EPA headquarters program
offices. The Office of Research and Development is the office that issued the cooperative agreement
reviewed.

Action Required

In accordance with EPA Manual 2750, the agency provided a corrective action plan for addressing the
recommendations with estimated milestone dates. Therefore, a response to the final report is not
required. The agency should track corrective actions in the Management Audit Tracking System until all
corrective actions have been completed.

This report will be available at http://www.epa.gov/oig.
Recipient Subawards to Fellows Did Not Comply With                                                                           14-P-0357
Federal Requirements and EPA’s Involvement in
Fellow Selection Process Creates the Appearance
EPA Could Be Circumventing the Hiring Process




                                     Table of Contents
   Purpose .....................................................................................................................   1

   Background ...............................................................................................................      1

   Responsible Offices ..................................................................................................          2

   Scope and Methodology ...........................................................................................               2

   Results of Review .....................................................................................................         2

           Subawards Issued Under CA Contrary to Federal Requirements .......................                                       3
           Agency Involvement in Selection Process Creates the Appearance of
           Circumventing the Hiring Process.......................................................................                  3

   Recommendations ....................................................................................................             4

   Agency Comments and OIG Evaluation ..................................................................                            5

   Status of Recommendations and Potential Monetary Benefits .............................                                         6



 Appendices
   A       Agency Response to Draft Report...................................................................                      7

   B       Distribution .......................................................................................................    10
Purpose
            The U.S. Environmental Protection Agency (EPA), Office of Inspector General
            (OIG), initiated an audit of Cooperative Agreement (CA) No. 83388101 awarded
            to the Association of Schools of Public Health (ASPH). We sought to determine
            whether the federal funds were used for their intended purpose and in accordance
            with the CA terms and conditions and applicable government regulations. In
            addition, we sought to determine whether the CA’s objectives were met.

Background
            The Clean Air Act, Section 103, and Clean Water Act, Section 104, authorize the
            EPA to establish and maintain research fellowships in the EPA and at public or
            nonprofit private educational institutions or research organizations. The applicable
            regulatory provision for the CA is in the Code of Federal Regulations (CFR) at
            40 CFR Part 30.

            The EPA Office of Research and Development (ORD) awarded CA No. 83388101
            to the ASPH on July 29, 2008. The purpose of the CA was to place recent
            graduates of schools of public health in 1- to 2-year fellowships at the EPA.
            Fellows were to gain practice-based training experiences and perform activities
            under the mentorship of EPA experts in environmental health. ASPH expected to
            place a minimum of 12 fellows per year during the performance period
            September 1, 2008, to August 31, 2013.

            Under the CA, the EPA agreed to cost share 100 percent of all approved budget
            period costs incurred up to $4,284,350. The CA was closed on September 2, 2014,
            with total federal expenditures of $4,043,436. In 2013, ASPH expanded
            membership to include Council on Education for Public Health-Accredited
            Programs of Public Health, and subsequently changed its name to the Association
            of Schools & Programs of Public Health. The fellowship program is intended to
            fulfill a public purpose and the EPA was not the primary or intended beneficiary
            of the program.

            According to ASPH, fellowships are awarded competitively, involving a
            two-phase review process. In the first stage, the applications are reviewed by
            two faculty members from schools of public health (other than the applicant’s
            institution) on the following criteria: quality of essay, strength of credentials,
            previous professional experience, and letters of recommendation. Applicants
            approved by the faculty review are invited to Washington, D.C., to interview for
            the fellowship. The interview results, along with the faculty review comments, are
            used to assess which candidates applying for individual projects are most suited
            for the fellowship. Fellows receive a training stipend for living expenses during
            the fellowship period. In addition, fellows have access to a general expense
            allowance to cover health insurance premiums (including medical, dental and
            vision premiums), travel and appropriate professional development expenses. To


14-P-0357                                                                                      1
            be eligible for a fellowship, candidates must have attained a masters or doctoral
            degree within the last 5 years from an ASPH-member, accredited school of public
            health. Applicants must also be U.S. citizens or hold visas permitting permanent
            residence in the United States.

Responsible Offices

            The Office of Grants and Debarment, within the Office of Administration and
            Resources Management, is responsible for grants management of CAs issued by
            EPA headquarters program offices. ORD is the office that issued CA No.
            83388101. For CA No. 83388101, the Grant Specialist is in the Office of Grants
            and Debarment and the Project Officer is in ORD.

Scope and Methodology
            We conducted this audit from December 19, 2013, to June 13, 2014, in
            accordance with generally accepted government auditing standards, issued by the
            Comptroller General of the United States. Those standards require that we plan
            and perform the audit to obtain sufficient, appropriate evidence to provide a
            reasonable basis for our findings and conclusions based on our audit objectives.
            We believe that the evidence obtained provides a reasonable basis for our findings
            and conclusions based on our audit objectives.

            To answer our objectives, we completed the following steps:

                  Reviewed information in files provided by the Project Officer and Grant
                   Specialist.
                  Conducted interviews with the EPA Project Officer and Grant Specialist to
                   obtain an understanding of their roles and responsibilities under the CA.
                  Reviewed the limited scope review of ASPH conducted by a contractor in
                   2012 to identify issues that may have an impact on our audit. The review
                   was requested by the EPA as part of its oversight of administrative and
                   financial practices for grant recipients.
                  Conducted interviews with ASPH personnel, current and past ASPH/EPA
                   fellows, and an ASPH/EPA mentor to gain an understanding of the
                   fellowship program’s functionality and operations.
                  Reviewed available Single Audit reports and ASPH annual reports for each
                   year under the CA.

Results of Review
            Our audit did not identify anything that would indicate federal funds were being
            used inappropriately by ASPH or that the objectives of the CA were not being
            met. However, we did identify two areas under the CA that require improvement
            by the EPA:



14-P-0357                                                                                      2
                  ASPH’s subawards to fellows made under the CA are contrary to federal
                   requirements in that ASPH considers the fellows as subgrantees. This
                   occurred because of ASPH’s interpretation of the federal regulations.
                   A different award vehicle is needed for the ASPH fellowship program to
                   protect the agency’s interests and ensure performance accountability.

                  The EPA’s involvement in the selection process for fellowship candidates
                   creates the appearance that the agency could be circumventing the hiring
                   process and recruiting fellows in place of permanent employees.

            Subawards Issued Under CA Contrary to Federal Requirements

            ASPH’s subawards to fellows made under the CA are contrary to federal
            requirements under 40 CFR Part 30.5. Fellows receive a training stipend from the
            ASPH for living expenses. Per the agreements between ASPH and the fellows, the
            ASPH considers the fellows as subgrantees. Specifically, the agreement states:

                   For the purposes of this Agreement, the Fellow is considered a
                   sub-grantee, not an employee of ASPH.

            However, 40 CFR Part 30.5, in connection with Office of Management and
            Budget Circular A-110, states:

                   Unless sections of Circular A-110 specifically exclude
                   subrecipients from coverage, the provision of Circular A-110 shall
                   be applied to subrecipients performing work under awards if such
                   subrecipients are institutions for higher education, hospitals or
                   other non-profit organizations.

            Per the regulations cited, fellows are ineligible as a subgrantee because they are
            not an institution for higher education, a hospital or a non-profit organization.
            Therefore, a different award vehicle is needed for the ASPH fellowship program.
            If a different award vehicle is not identified and used, subawards under the CA
            would not comply with applicable federal regulations. The proper award vehicle
            must be determined to ensure that all parties are aware of and follow the
            applicable regulations. Further, determination of the proper vehicle will protect
            the agency’s interest and ensure performance accountability.

            Agency Involvement in Selection Process Creates the Appearance of
            Circumventing the Hiring Process

            The EPA’s involvement in the selection process for fellowship candidates creates
            the appearance that the agency could be circumventing the hiring process and
            recruiting fellows in place of permanent employees for the direct benefit of the
            EPA. EPA Order 5700.1 states that substantial involvement is anticipated where a




14-P-0357                                                                                        3
            project is expected to entail agency involvement in the selection of key recipient
            personnel. The fellows are considered key recipient personnel.

            The ASPH Director of Graduate Training verbally informed us that the EPA is
            involved at two points during the fellowship candidate selection process:

                  At the beginning of the process, the EPA Project Officer works with
                   ASPH to agree on the language to be included in the fellowship
                   announcement.

                  After potential candidates have been vetted through the ASPH recruiting
                   process, the EPA host offices conduct phone interviews and make a
                   recommendation to the ASPH for fellowship placement.

            The ASPH considers the EPA’s recommendations when making final selections
            and fellowship placement, although the final decision for placement of fellows is
            ASPH’s responsibility. ASPH does not maintain records of the recommendations
            from the agency and the final placement of the fellow.

            The purpose of the CA was to place recent graduates of ASPH member schools in
            the EPA for 1 or 2 years, to fulfill a public purpose and provide mentorship. The
            EPA was not the primary or intended beneficiary of the program. However, the
            agency being directly involved in the selection process creates the appearance that
            the EPA could be circumventing the hiring process and recruiting fellows in place
            of permanent employees.

            Although there is nothing that prohibits the agency from being involved in the
            selection process, the agency must exercise care in appearance issues created by
            its involvement. The EPA’s Office of General Counsel is the chief legal adviser to
            the EPA, providing legal support for agency rules and policies, case-by-case
            decisions, and legislation. An Office of General Counsel opinion is necessary to
            determine the extent to which the EPA should be involved in the selection of
            fellows.

Recommendations
            We recommend that the Director, EPA Office of Grants and Debarment:

               1. Determine the proper vehicle to be used under CA No. 83388101 between
                  ASPH and the fellows and take the necessary action to ensure subawards
                  comply with applicable federal regulations.

               2. Obtain an Office of General Counsel opinion on how the EPA should be
                  involved in the selection of fellows and, as needed, reduce the appearance
                  that the fellowship program is circumventing the hiring and recruiting
                  process.


14-P-0357                                                                                        4
Agency Comments and OIG Evaluation
            The OIG received comments from the Office of Grants and Debarment on
            July 18, 2014, and those comments are included in appendix A. The Office of
            Grants and Debarment agreed with the recommendations and provided a
            corrective action plan with estimated completion dates.

            For recommendation 1, the Office of Grants and Debarment indicated it will work
            with ORD and ASPH to clarify the correct type of agreement between ASPH and
            the fellows. In addition, the Office of Grants and Debarment indicated it will
            work with ASPH to clarify the agreement terminology.

            For recommendation 2, the Office of Grants and Debarment obtained an Office of
            General Counsel opinion and indicated it plans to issue a memorandum to the
            agency’s Senior Resource Officials on the agency’s role in selecting interns and
            fellows under assistance agreements.

            We held an exit conference with the agency on August 7, 2014, to discuss its
            response to the draft report. We agree with the proposed actions and consider the
            recommendations resolved and open with corrective actions ongoing.




14-P-0357                                                                                       5
                               Status of Recommendations and
                                 Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                         BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed-To
    No.      No.                         Subject                         Status1      Action Official           Date      Amount      Amount

     1        4     Determine the proper vehicle to be used under           O      Director, EPA Office of    12/31/14
                    CA No. 83388101 between ASPH and the fellows                   Grants and Debarment
                    and take the necessary action to ensure
                    subawards comply with applicable federal
                    regulations.

     2        4     Obtain an Office of General Counsel opinion on          O      Director, EPA Office of    12/31/14
                    how the EPA should be involved in the selection of             Grants and Debarment
                    fellows and, as needed, reduce the appearance
                    that the fellowship program is circumventing the
                    hiring and recruiting process.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-P-0357                                                                                                                                    6
                                                                                 Appendix A

                  Agency Response to Draft Report

                                         July 18, 2014


MEMORANDUM

SUBJECT: Response to Office of Inspector General Draft Quick Reaction Report: Use of
         Subawards and Agency Involvement in the Selection Process Under Fellowship
         Cooperative Agreements Impacts Compliance with Federal Requirements
         (Project No. OA-FY14-0084, June 13, 2014)

FROM:         Howard F. Corcoran /s/ Howard F. Corcoran
              Director, Office of Grants and Debarment

TO:           Robert Adachi
              Director of Forensic Audits
              Office of Inspector General

The Office of Grants and Debarment (OGD) thanks you for the opportunity to respond to the
issues and recommendations in the subject Office of Inspector General (OIG) Draft Quick
Reaction Report (Report). Following is a summary of the Agency’s overall position, along with
its position on each of the report recommendations. For those report recommendations with
which the Agency agrees, we have provided either high-level intended corrective actions and
estimated completion dates to the extent we can or reasons why we are unable to provide high-
level intended corrective actions and estimated completion dates at this time.

AGENCY’S OVERALL POSITION

As describe below, OGD generally agrees with the OIG’s findings and recommendations.

The Report finds that the Association of Schools of Public Health (ASPH) mischaracterized
fellows receiving research training under Cooperative Agreement 83388101 as subawardees
because individuals are ineligible as subawardees under 40 C.F.R. 30.5. We agree with this
finding albeit for a different reason.

Consistent with Grants Policy Issuance 07-02 and EPA’s Subaward Policy, ASPH fellows
should have been classified as “program participants” receiving stipends and other financial
assistance under the “participant support cost” provision of 2 C.F.R. Part 230 (OMB Circular
A-122), Appendix B, Item 33. The Agency’s position is also supported by the definition of
“subrecipient” in 2 CFR 200.93 of the new OMB Super Circular, which provides that program
beneficiaries are not subrecipients.



14-P-0357                                                                                       7
It should be noted, however, that the Agency has authority to award research and demonstration
grants and cooperative agreements directly to individuals under statutes such as section 104 of
the Clean Water Act, section 103 of the Clean Air Act, and section 8001 of the Solid Waste
Disposal Act. That authority may, in a proper case, support a subaward to an individual
provided the terms of the subaward require the individual to comply with regulations applicable
to subawards. See Office of General Counsel Legal Opinion, Subgrantees under EPA Assistance
Agreements (Attachment A). For example, a nonprofit organization that receives a grant from
EPA to conduct projects to conduct research and demonstrate innovative methods of preventing
water pollution may make a subawards to individual inventors to support technology
demonstration projects.

EPA’s Subaward Policy expressly allows subawards to individuals provided the subaward is not
for a fellowship. This is because under 40 CFR 30.1, EPA’s statutory authority to award grants
and cooperative agreements to individuals provides an exception to the exclusion of payments to
individuals in the definition of “award” at 40 CFR 30.2(e) and 40 CFR 30.2(ff). In this regard,
and as noted above, the exclusion of individuals from the definition of subrecipients at 2 CFR
200.93 is limited to program beneficiaries.

OGD will work with the Office of Research and Development (ORD) to determine the correct
type of agreement to be used between the cooperative agreement recipient, ASPH, and the
fellows. OGD and ORD will then work with ASPH to insure that it documents the process in all
of their internal policies and procedures.

The Report also found that EPA’s involvement in the selection process for fellowship candidates
creates the appearance of circumventing the hiring process. OGD consulted with the Office of
General Counsel (OGC) to obtain an opinion on this issue. The award under review is a
cooperative agreement and, as such, it is expected that the EPA would have substantial
involvement, as opposed to the Agency’s more limited involvement as it relates to a grant.

As noted in Attachment B, OGC concluded that, consistent with EPA Order 5700.1, there could
be a role for EPA to make recommendations on fellowship candidates as part of the substantial
involvement under a cooperative agreement. OGC suggested, however, that a better process
might be for the EPA office involved to provide more general recommendations such as
parameters or basic qualifications for potentially successful fellowship candidates. This
suggestion reaffirms the advice provided in the joint OGC-OGD memorandum, dated January
17, 2001, Interns Funded Under Cooperative Agreements, which states that EPA’s role in the
placement of interns is limited to advising the recipient on the “fit” between a intern’s interest
and qualifications and the training and research opportunities available in the program or
laboratory. Final decisions on intern selection must be made by the cooperative agreement
recipient. The January 17 memo makes clear that a greater EPA role would inadvertently create
the appearance that an intern/fellowship program is being used to circumvent personnel
ceilings. OGD agrees with the OIG of the importance of avoiding such an appearance, and will
issue updated guidance to the Agency’s Senior Resource Officials on the limitations on EPA’s
role in selecting interns.




14-P-0357                                                                                            8
AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS


 No.     Recommendation                  High-Level Intended           Estimated Completion
                                         Corrective Action(s)          by Quarter and FY
         Determine the proper vehicle    1.1 OGD will work with        1st Quarter FY 2015
         to be used under CA No.         ORD and ASPH to clarify
   1     83388101 between the ASPH       the correct type of
         and the fellows and take the    agreement used between
         necessary action to ensure      ASPH and the fellows. We
         sub-awards comply with          will then work with ASPH
         applicable federal              to insure they clarify the
         regulations.                    agreement terminology in
                                         their internal guidance.
         Obtain an Office of General     2.1 OGD consulted with        Completed. Also, in the
         Counsel opinion on how the      OGC and received an           1st quarter FY 2015,
   2     EPA should be involved in       opinion that has been         OGD will issue a
         the selection of fellows and,   incorporated into this        memorandum to the
         as needed, reduce the           response.                     Agency’s Senior
         appearance that the                                           Resource Officials
         fellowship program is                                         concerning the
         circumventing the hiring and                                  limitations on EPA’s
         recruiting.                                                   Role in selecting
                                                                       Interns and Fellows
                                                                       under assistance
                                                                       agreements.



CONTACT INFORMATION

If you have any questions regarding this response, please contact me at (202) 564-1903.

Attachments

cc: Denise Polk
    Jill Young
    LaShaun Phillips
    Wendel Askew
    Jennifer Hublar
    Tracy Bryant
    Amy Battaglia




14-P-0357                                                                                        9
                                                                              Appendix B

                                   Distribution
Assistant Administrator for Administration and Resources Management
Director, Office of Grants and Debarment, Office of Administration and Resources Management
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division,
        Office of Administration and Resources Management
Principal Deputy Assistant Administrator for Research and Development
Chief, Grants Management, Office of Research and Development
Grant Specialist, Office of Grants and Debarment, Office of Administration and
        Resources Management (CA No. 83388101)
Project Officer, Office of Research and Development (CA No. 83388101)
Audit Follow-Up Coordinator, Office of Research and Development
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Grants and Debarment, Office of Administration and
        Resources Management




14-P-0357                                                                                10
